                                                       National Railroad Passenger Corporation
                                                       Office of Inspector General
                                                       10 G Street, N.E.
                                                       Washington, DC 20002




                          Tuition Assistance Wrongfully Obtained
                                   Case Number 10-073
                                      August 17, 2010

The Office of the Inspector General (“OIG”), Office of Investigations (“OI”) received
information that an Amtrak station clerk received tuition assistance from Amtrak to attend
college while on a Medical Leave of Absence. The station clerk graduated from the University
of Texas at El Paso with a degree in Engineering and gained employment with a defense
contractor in Phoenix all while on leave medical leave from Amtrak.

Amtrak policy dictates that an employee must be in an “active employment status” at the
beginning and throughout the course of study to be eligible to receive tuition reimbursement. OI
substantiated that the station clerk had received $ 2,482.92 in tuition reimbursement while on
medical leave. Management charged the station clerk with abandoning his position with Amtrak.
The station clerk resigned his position with Amtrak, and authorized Amtrak to deduct $1,976.08
from his vacation pay which was due upon his resignation.
